.. ,
                      ''



                                COST- SHARING

                           FOR OLDER AMERICANS





                tRVJCES'




        '0


             It
             olli\rd3a



        OFFICE OF INSPECTOR GENERAL
        OFFICE OF EVALUATION AND INSPECTIONS
                                                 OCTOBER 1990
                      COST- SHARING

                  FOR OLDER AMERICANS





                        Richard P. Kusserow
                        INSPECTOR GENERAL




OEI- 02-90- 01 01 0                           OCTOBER 1990
                                 EXECUTIVE SUMMARY

PURPOSE

To assess the experience of State programs for the elderly which provide in- home and adult
day care services on a cost-sharng basis.

BACKGROUND

The Commissioner on Aging requested this study as a source of information on State
experiences with cost-sharng progrms. The Older Americans Act (OAA) of 1965 created the
Administration on Aging and provides financial assistace to States for social service and
nutrtion programs for the 60- plus population. For FY 1990, appropriations were $709
milion , down 20 percent from 1981 when adjusted for inflation.

State and area agencies on aging cannot charge fees for title lIT services, although the law
permts soliciting recipients for voluntar contrbutions. States, however, are free to charge
for services provided though State funding rather than Federal title ITI funding. About 40
States have cost-sharng for some State- funded programs, and income-related sliding fee
scales are generally used to set cost-sharng amounts.

METHODOLOGY

The study team sampled eight States with cost-sharng programs and interviewed recipients
who are required to cost-share; assessed charact ristics of cost-sharng programs; and
interviewed State and local offcials, including local service providers, involved in
cost-sharng activities. The team also sampled four States without cost-sharng programs and
obtained State and local offcials '   views on cost-sharng.

MAJOR FINDINGS

Recipients Are Responding Positively To Sharing Costs

           Cost- Sharng Is Considered Fai      and Appropriate


Nearly 90 percent of recipients interviewed say paying is fair; over 80 percent say their share
was figured fairly. Few say it is ever a hardship to pay. Nearly all say all States should
require seniors to pay something for adult day care and in- home services, if they can afford it.

           Recipients Report Services W Qrth     What They Pay For Them

Over 90 percent of recipients report satisfaction with their services and find them worth what
they pay for them.
Cost- Sharing Seen As Effective And Efficient

             State Cost- Sharng Programs are Considered Effective Despite Limited Funding

State and local officials in all eight States say money from recipients of adult day care and
in- home services actually helps expand programs and serve more recipients. Two-thirds from
all eight States consider the cost-sharng programs in their States to be cost-effective.

            Cost- Sharng Programs Appear to Operate Efficiently

Recipients usually declare their income and are not investigated. Income-related sliding fee
scales are used to determne the recipients ' shares. State and local offcials in all eight States
say their programs bil by mail , usually monthly. Almost all recipients pay by check. All
the State programs have appeals mechanisms for recipients. Two-thirds of the State and local
offcials from all eight States say that they maintain services to recipients while they tr to
resolve payment issues.

Extending Cost-Sharing To Title     III   Has Strong Support, But Careful Planning Is
Recommended

            Officials in States with Cost-sharng Programs Are Strongly Supportive

More than three- quarers of State and local    offcials   interviewed say they feel positively about
the cost-sharng feature of programs funded by their States. Over 70 percent say it helps to
insure that adult day care and in- home services wil continue. Ninety percent support cost
sharng for adult day care and in- home services under title ITI of the OAA , with over 75
percent being fully supportive. Seventy-three percent support cost      sharng for other title lIT
serVIces.

             Support for title ITI Cost- Sharng Also Exists in States Without This Feature

Nearly 75 percent of the noncost-sharng State and local officials interviewed support cost­
sharng for adult day care and in- home services under title lIT. Almost 80 percent support
cost-sharng for other title lIT services.

             Careful Planning and Flexibility Recommended by State Officials

State offcials recommend educating the public on the need for and nature of this feature, and
exempting those who cannot afford to pay. They want broad guidelines and maximum
flexibility in implementing cost-sharng, and prefer self- declared disposable income, tied to
sliding fee scales, as the method for establishing recipient charges.
AGENCY COMMENTS

The Commissioner on Aging reviewed the draft of this report and supports the study
findings.
                                                                                         ................
                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. . . . . . .




-__n                                  TABLE OF CONTENTS



       EXECUTIVE SUMMARY

       INTRODUCTION

         Purpose                                                                         . . . . . . . . . . . . . . . . 1




        . Background. . .
         Methodology

       FINDINGS

       APPENDIX: Commissioner on Aging s comments . . . . . . . . . . . . . . A -
                                          INTRODUCTION


    PURPOSE

    To assess the experience of State programs for the elderly which provide in- home and adult
    day care services on a cost-sharng basis.

    BACKGROUND

    This study was requested by the Commissioner on Aging as a source of information on State
    experiences with cost-sharg prQgrams. The Older Americans Act (OAA) of 1965 created the
    Administration on Aging and provides financial assistace to States to develop new or
    improved social service and nutrtion programs for older persons. Grants are allotted to each
    State based on the size of the 60- plus population. Appropriations for these programs are $709
    milion for FY 1990, a decline of 20 percent from 1981 when adjusted for inflation.
    The 1978 amendments to the OAA consolidated under title lIT the social services, nutrtion
    services and multipurose senior center programs formerly authorized under titles ITI, V and
    VII. The $709 milion in title il funding for FY 1990 is broken down as follows. Par B
    which provides funding for a varety of supportve services, including health, transportation
    and legal assistance, has appropriations of nearly $273 milion. Par C, which funds nutrtion
    services, including both congregate and home- delivered meal programs, has appropriations of
    over $430 millon. Par D (created by the 1987 amendments), which provides for
    non-medical in- home and adult day care services for frail older individuals, has nearly $6
    milion.

    State and area agencies on aging are not permitted to charge fees for title ITI services provided
    to recipients under present law and regulations, although the law permts solicitation of
    voluntar contrbutions from recipients. While title lIT mandates that these services be
    provided " to older individuals with the greatest economic or social needs, with parcular
    attention to low- income minority individuals, " recipient income has no bearng on eligibility
    for these services. In fact, income information may be collected from recipients on a
    voluntar basis   only.


    States, however, are free to charge recipients for services provided through State rather than
    Federal title lIT fundig. Cost sharng by recipients is a concept currently gaining popularty
    in State and area agencies on aging as a means of maintaining and expanding community
.   elder care programs amidst declining Federal support. About 40 States have already instituted
    cost-sharng arangements for some State- funded programs, although not usually on a
    statewide basis. Cost-sharng is not I1 ndatory in all these States and is usually strctured
    around income-related sliding fee sc;;les which suggest the amount of charges or expected
    voluntar contrbutions. These programs cover a range of services, including personal care
    respite care, homemaker, home health aide and adult day care services. Congress has
    consistently resisted amending the OAA to permit charges for title III services under a
    cost-sharng program.
                                             ---   ..




METHODOLOGY

Telephone and personal discussions were held with a purposive sample of 107 State and local
aging program offcials and other State respondents in eight States which have cost-sharng
programs and in four States which do not. Included are 44 State and area agency offcials; 39
local provider agency offcials; 11 elder advocacy group representatives; 10 officials of area
agency and provider agency State associations; and 3 State and local elected officials. All
these respondents are referred to as " State and local offcials " in the report, unless otherwise
noted. In addition, a purposive sample of 162 cost-sharng recipients in the eight cost-sharng
States (12 to 25 per State) were interviewed by telephone.

Because many of these recipients are in poor health , recipient responses were provided by a
responsible person acting as a surrogate, usually a spouse or child of the recipient, in 77 cases.
As this situation is common in programs which serve the needy and frail elderly, the attitudes
and perspectives of those who handle the finances of this population are important in
understanding the impact of charges for services.

The State programs were selected pased on the number of persons over age 60 within the State
and the State s geographic location. States with cost-sharng programs were selected based
years of experience with cost-sharng. Within cost-sharng States, recipients were selected
from area and provider agency cost-sharng programs which provided adult day care and
in- home services. For this study, in- home services included: a) homemaker and home health
aide; b) visiting and telephone reassurance; c) chore maintenance; and d) in- home respite care
and adult day care outside the home as respite for famlies.

Offcials administering cost-sharng were asked how they view cost sharng, how cost sharng
has been implemented, whether cost-sharng is cost-effective, how eligibilty is determined
and how collections are made. Recipients were asked how they view cost-sharng and the
mechanisms by which eligibility levels are determned and collections are made. Offcials in
States without cost-sharng were asked how they view cost-sharng and how they might want
to see cost-sharng implemented in their States.
                                          FINDINGS

RECIPIENTS ARE RESPONDING POSITIVELY TO SHARING COSTS

Cost- Sharing Is Considered Fair and Appropriate

Nearly 90 percent of recipients interviewed consider it fair that they have to pay something for
the adult day care and in- home services they receive. A tyical comment was: " I just don
expect something for nothing. I feel if we can , we should pay.

Almost all who gave an opinion are satisfied with the way their share of the cost was fi gured.
One said: " I feel it was fai and they understood my financial limitations.

The great majority of recipients are biled   on a monthly basis and pay   for their services by
personal check.

Few recipients find it is ever a hardship to pay for the services. Many indicate that providers
have taen their financial circumstances into account and have made every effort to provide
needed services at charges they could afford.

Nearly all recipients think all States should require seniors to pay something for adult day care
and in- home services, if they can afford it. They expressed their strong feelings, typicaly, in
the following ways: " It is a matter of pride and conscience. If you can pay it, you should,
and " I feel that it is no more than right. If a person is able to pay, then the program would
benefit and be able to provide services for more people.

Recipients Report Services Worth What They Pay for Them

Over 90 percent of the recipients report they ar satisfied with their services and consider the
services worth what they pay for them. One said: " It' s exactly what I need. The help I get is
wonderful and it is very much appreciated. " A recipient s daughter said: " It has been such a
big help. If she didn t have it, she d be in a nursing home. " Another recipient said: " When
you need help and you receive good service, you re happy. I feel it is wort what I pay.

COST SHARING SEEN AS EFFECTIVE AND EFFICIENT

State Cost- Sharing Programs are Considered Effective Despite Limited Funding

Over 70 percent of cost-sharng State and local offcials from all eight States expressing an ­
opinion say that money collected from cost-sharng recipients in adult day care and in- home
service programs actually helps expand these programs and serve more recipients.
Those who believe otherwise cite obstacles to expanding programs and serving more
recipients , and are unanimous that the lack of sufficient Federal, State and local funding is a
major obstacle. Other major obstacles include insuffcient revenues from cost-sharng
                                                                                                      ---.




recipients (according to a substantial majority) and limited outreach (according to nearly half
of them). More than half rate administrative costs as a minor obstacle.

More than 70 percent of respondents from all eight States expressing an opinion believe that
cost-sharng programs in their States are cost-effective. Some feel that their programs are
cheaper to administer than nursing home services, which they consider a less desirable and
more costly alternative. In their minds, adult day care and in- home services are among the
most important ways to maintain recipients in their homes and provide needed respite for
those who live with them.

Cost- Sharing Programs Appear to Operate Efficiently

Recipients in most cost-sharng States declare their income and are not subjected to
investigation and verification. Most State and local offcials prefer this method since it
maintains the recipient s dignity, encourages their parcipation and keeps the process simple
and cost-effective. States var as to the inclusion of liquid and non- liquid assets and the
exclusion of medical and other extraordinar expenses.

Income-related sliding fee scales are used in all eight cost-sharng States to determne the
recipients ' shares. Nearly two- thirds of State and local official respondents from al eight
States refer to their State s methods as means testing. However, many of them, as well as
many respondents who cite other methods, oppose using the term. They dislike its welfare
eligibilty connotations. Since the services they fund and provide are available regardless of
seniors ' income levels, they find a term such as " income-related sliding fee scales " preferable.

Each cost-sharng State, however, uses similar but distinct criteria for determning those
exempt from charges because of their income levels. In some States income at or below 100
percent of the "Federal poverty level is the measure; elsewhere, 125 to 250 percent of poverty
is used. Varations in the cost of living generally account for these differences. The
percentage of recipients currently required to pay something for their services in the sample
States ranges from 2 percent to 56 percent, averaging about 30 percent. In the sample of 162
recipients, the average cost share per recipient was about 33 percent.

According to interviews with State and local officials, all programs bil recipients by mail
(usually monthly) for their share of the costs. About four of five sample recipients receive
bils by mail. Almost all pay for these services by check.

All of the programs in the sample States have an appeals mechanism for recipients.
Two- thirds of the State and local offcials from all eight States say that most of their programs
maintan services to recipients while they tr to resolve payment issues; most write off the
recipients ' charges if the recipient is ultimately deemed capable but unwiling to pay.
EXTENDING COST- SHARING TO TITLE II HAS STRONG SUPPORT, BUT
CAREFUL PLANNING IS RECOMMENDED

Officials in States with Cost-Sharing Programs Are Strongly Supportve

More than thee- quarters of State and local offcials interviewed in cost-sharng States feel
positively about the cost-sharng feature of community service programs funded by their
States. One State agency offcial offered a consensus in saying it is an " idea whose time has
come, " because all other sources of funding for these programs are dring up.

Respondents also view cost-sharng as necessar for the continuation of these services. Over
70 percent of those interviewed in cost-sharng States say it helps to insure that adult day care
and in- home services wil continue to be provided in their States. Several State agency and
elected officials report that while charges actually collected from small numbers of
cost-sharng recipients do not always allow program expansion , the cost-sharng feature is
politically necessar to assure continued legislative and private sector support. In one sample
State, cost-sharng was adopted in order to secure an initial funding commitment from the
governor and the legislature.

Ninety percent of all these respondents say they support cost-sharng for adult day care and
in- home services under title lIT, with over 75 percent saying they are fully supportve.
Seventy- three percent support cost-sharng for other title ITI services, including transportation
legal services and home- delivered meals, based, in par, on the positive experience of
cost-sharng States.

Supportfor Title     III   Cost-Sharing Also Exists in States Without This Feature

Nearly three- quarers of the noncost-sharng State and local offcials interviewed support cost­
sharng for adult day care and in- home services under title il. Most point to a critical need
for additional funding for these services which cost-sharng wil help meet. Cost-sharng, in
their view, would also help serve more recipients, expand programs and initiate new services.
One area agency association representative said: " The demand for these services is growing
and needs the most resources.

Almost 80 percent of these respondents support cost-sharng for other title lIT services,
including transportation , legal services and home- delivered   meals. A provider representative
predicts a significant benefit in expanding cost-sharng:

          The long-range benefit would be the reorientation of the aging population , which
          is growing so rapidly, to a cost-sharing mode of operation for all services made
          available to them. We have to start some time, and the sooner the better.
Careful Planning and Flexibility Recommended by State Offcials

State and local officials interviewed recommend a strong effort to make the public aware of
the need for and nature of cost-sharng, assuring the public that only those who can afford to
pay wil be required to pay. They also recommend extensive use of statewide task forces,
made up of representatives from agencies, communities and legislatures.

Respondents from several State and area agencies in noncost-sharng States would like title     ITI

cost-sharng demonstration projects conducted in several States, before a national program
goes into effect.

Some respondents in cost-sharng States caution that a long- term State fundig commtment is
needed. This is because the cost-sharng feature may need several years to reach a level of
effcient operation and significant revenues. In one State, described as " fiscally conservative
by a representative of a seniors ' advocacy group, an experimental cost-sharng program
currently limited to a few counties, wil not be expanded because of rising costs. The program
has become very popular and people from every county want access to it.

Supporters of cost-sharng under title lIT want flexibilty at the State and local level when
implementing the program and as much discretion as possible. For example, they want to be
able to alow recipients to temporarly reduce or forego payments when unexpected or
extraordinar expenses afect their abilty to pay. All the State and local respondents want a
cost-sharng program under title lIT to have broad guidelines, giving State, area and provider
agencies suffcient discretion. In determning whether recipients must pay and how much
State and local officials prefer to have recipients declare their income and not be subjected to
investigation and income verification. Most would like to use a simple method for
determining disposable income.

Non-cost-sharng State area and provider agency respondents war against the possibilty of
two standards of service emerging: one for those who can pay something and another for
those who cannot pay. Representatives of several cost-sharng State area and provider
agencies report they assess the needs of potential recipients fIrst, then their financial status.
This insures that those most in need of services are served first, regardless of income.

Non-cost-sharng State provider agency respondents also express some concern about the
costs of additional personnel needed for assessments and for biling and collection.
Cost-sharng States ' experience with administrative expenses vares, as does the agency (State
area or provider) which has to absorb the expenses. One area agency offcial said: "Local
providers absorb any added costs for administering these programs - they re not immediately
passed on to us. " Conversely, a provider agency official said: " All administrative work is
done by the area agency. We provide services and bil them. It s very cost-effective for us.
AGENCY COMMENTS

The Commissioner on Aging reviewed the draft of this report and supports the study
findings. The full text of the Commissioner s comments are included in appendix A.
APPENDIX

   ....,..
., ~
     ,.,'VICtJ'
                  L1 .

                           DEPARTMENT OF HEALTH II HUMAN SERVICES	               Ofice of the Secretary




                         Administration on Aging	                                Washington . D. C.   20201




                                                                         SEP    6 190

                         TO:	         Michael Mangano

                                      Deputy Inspector General for

                                        Evaluation and Inspections
                         FROM:	       u. S. Commissioner on Aging
                         SUBJECT:	    OIG Working Draft, . Cost-Shar ing for Older Americans


                         We have reviewed the OIG Working Draft, . Cost-Sharing for Older
                         Americans     We are pleased with the findings of the study and
                         your presentation of these findings. Resources needed to
                         maintain and expand services to the rapidly growing elderly
                         population are difficult to find in the public and private
                         sector.   Therefore, client participation in the cost of services
                         is one of the very few alternatives for addressing the
                         increasing service needs of the elderly.

                         The OIG study directly supports the findings of the General

                         Accounting Office on the same subject. However, the OIG study

                         is particularly persuasive because it includes interviews with

                         elderly service recipients and their families and documents

                         their willingness to share in the cost of the services.


                         The Administration on Aging has recommended that the Department

                         propose to the Congress that the Older Americans Act be amended

                         to permit States to use cost-sharing for Title III services,

                         with particular attention to Part B Services, provided to older
                         persons with an income of at least 200% above the poverty
                         level. I  am certain that this study will help the Department
                         convince the Congress that such amendments are viable and
                         desirable.
                         We have no suggestions for changing this     report. Thank      you for
                         your assistance in irnprOVi                   t e elderly"




                                                         Joyce T" Berry, Pti"
